                             UNITED STATES
                     NUCLEAR REGULATORY COMMISSION
                             WASHINGTON, D.C. 20555-0001




OFFICE OF THE
INSPECTOR GENERAL


                                January 30, 2014



MEMORANDUM TO:             Mark A. Satorius
                           Executive Director for Operations



FROM:                      Stephen D. Dingbaum /RA/
                           Assistant Inspector General for Audits


SUBJECT:                   STATUS OF RECOMMENDATIONS: AUDIT OF
                           NRC’S OVERSIGHT OF ACTIVE COMPONENT
                           AGING (OIG-14-A-02)

RERERENCE:                 DEPUTY EXECUTIVE DIRECTOR FOR REACTOR
                           AND PREPAREDNESS PROGRAMS
                           MEMORANDUM DATED DECEMBER 9, 2013


Attached is the Office of the Inspector General’s analysis and status of
recommendations 1 and 2 discussed in the agency’s response dated
December 9, 2013. Based on OIG’s analysis of this response, both
recommendations remain unresolved.

The recommendations remain unresolved because the staff–via the
December 9 memo signed by the Deputy Executive Director for Operations
(DEDO) for Reactor and Preparedness Programs–did not address the two
fundamental points of the OIG report: that NRC (1) has not conducted a
systematic evaluation of program needs for overseeing licensees’ aging
management for active components since the establishment of the Reactor
Oversight Process (ROP) in 2000; and (2) has not developed and incorporated
within policy and guidance the existing mechanisms used for systematic and
continual monitoring, collecting, and trending of age-related data for active
components. A detailed analysis for each recommendation is attached.
Given this impasse between OIG and the staff, we request that you intervene, as
an initial step towards resolution that is outlined in Management Directive 6.1,
Resolution and Followup of Audit Recommendations, to resolve “any
disagreements between the DEDOs and the IG regarding internal audit findings
and recommendations.”

Pending your review, please provide an update by February 28, 2014, regarding
the actions the agency will take with regard to the OIG recommendations.

If you have questions or concerns, please call me at 415-5915 or R.K. Wild,
Team Leader, at 415-5948.


Attachment: As stated

cc:   R. Mitchell, OEDO
      K. Brock, OEDO
      J. Arildsen, OEDO
      C. Jaegers, OEDO
                                 Audit Report

        AUDIT OF NRC’S OVERSIGHT OF ACTIVE COMPONENT AGING

                                  OIG-14-A-02

                          Status of Recommendations


Recommendation 1:        Perform and document a thorough and systematic
                         evaluation of the need for an NRC program to oversee the
                         management of active component aging activities, all
                         within the context of the current ROP environment.
                         Evaluation elements are to include, but should not be
                         limited to, the need for:

                         (a) Program policies, goals, and objectives.

                         (b) Program feedback and corrective actions for continual
                             improvement.

Agency Response Dated
December 9, 2013:     The ROP provides a framework for ensuring that both
                      active and passive aging issues with the potential to
                      impact safety are addressed in a timely manner. This
                      framework provides assurance that the U.S. Nuclear
                      Regulatory Commission (NRC) will identify
                      safety-significant, age-related failures of active
                      components. Further, the NRC has processes in place to
                      systematically evaluate the results of the ROP, along with
                      several other data sources. The staff considers the intent
                      of your recommendation is already met by the current
                      program. A more detailed discussion underpinning the
                      staff’s position is provided in the staff’s
                      September 27, 2013, memorandum (Appendix B to OIG-
                      14-A-02).

OIG Analysis:            The proposed corrective action does not address the
                         intent of OIG’s recommendation because the staff
                         response has not addressed a key point in the audit
                         report; primarily, that the agency has made assumptions
                         about the efficacy of ROP regarding aging without a
                         comprehensive analysis that demonstrates the strengths
                         and weaknesses of ROP as a mechanism for oversight of
                         active component aging. The OIG report describes a
                         variety of issues with current regulations and inspection
                         guidance that simply cannot be made to disappear by
                         invoking ROP. This is because (1) numerous undetected
                                  Audit Report

          AUDIT OF NRC’S OVERSIGHT OF ACTIVE COMPONENT AGING

                                  OIG-14-A-02

                            Status of Recommendations


Recommendation 1 (cont.):

                        active component age-related issues exist despite the use
                        of ROP, and (2) the agency has not conducted an
                        analysis of the impact of ROP implementation on the
                        agency’s overall assumptions about how these regulations
                        and inspection guidance documents are supposed to work
                        to provide effective oversight of active component aging
                        phenomena.

                        Moreover, the staff response did not adequately address
                        communications, coordination, and management
                        cognizance challenges described in the report related to
                        the absence of a formal active component aging oversight
                        program. This serves as another basis for NRC to
                        conduct a full-on review of the need for a more formal
                        active component aging oversight program.

                        OIG will consider this recommendation resolved when the
                        agency outlines a timeline and the steps it plans to take to
                        perform and document a thorough and systematic
                        evaluation of the need for an NRC program to oversee the
                        management of active component aging activities.


Status:                 Unresolved.
                                         Audit Report

         AUDIT OF NRC’S OVERSIGHT OF ACTIVE COMPONENT AGING

                                         OIG-14-A-02

                                Status of Recommendations


Recommendation 2:              Develop and incorporate the mechanisms for monitoring,
                               collecting, and trending age-related data for active
                               components within NRC policy and procedures.


Agency Response Dated
December 9, 2013:     As previously stated and discussed in greater detail in our
                      memorandum, the staff collects or has access to
                      operating experience data gathered from reportable
                      events, international events, industry failure data, and
                      inspection findings. This data is routinely screened for
                      significance and trending and analysis, regardless of
                      cause. The staff considers the intent of your
                      recommendation is already met by the current program.


OIG Analysis:                  The proposed corrective action does not address the
                               intent of OIG’s recommendation because the staff did not
                               satisfactorily describe how the efforts it claims to have
                               taken to monitor data—which, it should be noted, are not
                               age-specific data—still managed to miss a significant
                               number of safety-related aging issues as documented in
                               its own 2012 Component Aging Study, 1 as well as from
                               other sources including OIG’s own data review. OIG
                               stated as much in the Audit Report, Appendix C, OIG
                               Response to Agency Comments:

                                    “…OIG recognizes that NRC collects a great deal of
                                    industry operating experience. However, the agency
                                    does not collect or evaluate it for aging active
                                    component degradation or failures. Given the
                                    evidence reviewed in this audit, OIG concluded that
                                    NRC should establish a factual basis for its belief that
                                    no additional programs for the monitoring, collecting,
                                    and trending of active component aging data are
                                    necessary.”

1
 IOEB Component Aging Study 2007-2011 — Insights from Inspection Findings and Reportable
Events, July 24, 2012 (IOEB Study). This study is publicly available; see ADAMS accession number
ML13044A469.
                                  Audit Report

          AUDIT OF NRC’S OVERSIGHT OF ACTIVE COMPONENT AGING

                                  OIG-14-A-02

                            Status of Recommendations


Recommendation 2 (cont.):

                        OIG will consider this recommendation resolved when the
                        agency (1) demonstrates how new or current data
                        collection efforts have been developed or modified to
                        specifically collect, monitor, and trend data on active
                        component degradation or failures due to aging, and (2)
                        describes a timeline and plan to incorporate these efforts
                        within NRC policy and procedures.


Status:                 Unresolved.
